NO. 20-

(CAPITAL CASE)

IN THE
SUPREME COURT OF THE UNITED STATES

REINALDO DENNES,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice (Institutional Division),
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis. Petitioner has previously been granted leave
to proceed in forma pauperis in the United States District Court for the Southern District of Texas.
Counsel is appointed pursuant to 18 U.S.C. ยง 3599.

Respectfully submitted,
SS
/S/ Ken McGuire
KENNETH W. MCGUIRE*

McGuire Law Firm
P.O. Box 79535
Houston, Texas 77279
(713) 223-1558
kennethmcguire@att.net
*Counsel for Petitioner Reinaldo Dennes

